2006 Performance Report




      Social Security Administration
  Office of the Inspector General
                   Table of Contents



Executive Summary…………………………………………………                 1

Performance Results……………………………………….………..             2

Performance Discussion and Analysis ……………………….……..   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY



The 2006 Performance Report (i.e. Report) reflects the Office of the Inspector General’s
(OIG) accomplishments under the first year of our new Fiscal Year (FY) 2006-2010
Strategic Plan. In upholding the vision of our previous Plans, our goals and
achievements focus on an organizational commitment to the principles and standards that
we hold highest. These ideals are manifested in three general areas: the Impact our
efforts have on Social Security’s programs and operations; the Value we bring to Social
Security and the citizens we serve; and the People of the OIG, who are no doubt our most
valued asset. We measure our commitment to these ideals by setting fair targets
established under 14 separate performance measures. Some of these targets carry over
from our prior 3-year Plan; others are new or were revised to reflect the higher standards
we have set for ourselves. For FY 2006, we are pleased to report that we successfully
met the targets or had a positive outcome for all 14 performance measures.

Our accomplishments during this past year clearly depict the continued impact our efforts
have on improving the integrity of Social Security programs and operations. Since the
creation of our OIG in 1995, we have always demonstrated that the money invested in
this organization is well spent. This year, for every $1 invested in our activities, we
returned $46 through audits, investigations and legal proceedings. The Report
also confirms the emphasis this organization has placed on developmental and
skill-enhancement training for its people. Evidence of this commitment can be found in
our employee satisfaction rate (81%) and low attrition rate (2%).

As FY 2007 begins, we will remain attentive to the performance measures in this Report.
We will be flexible to guarantee that our standards remain relevant for defining success in
a rapidly changing environment. Certainly the foundation for successfully executing the
Strategic Plan was established in FY 2006.




October 2006             SSA OIG FY 2006 Performance Report                       Page 1
                                    PERFORMANCE RESULTS


                                                                                            GOALS
GOAL                     DESCRIPTION                              TARGET RESULT          MET    NOT
                                                                                                MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                               85%         93%         X
       85 percent for all recommendations.
       Through FY 2010, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                               85%         92%         X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
       Achieve a positive action on at least 80 percent of all
 1.3                                                               80%         87%         X
       cases closed during the FY.
                                                    VALUE
       Generate a positive return of $4 for every tax dollar
 2.1                                                              $4 to $1   $46 to $1     X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                               90%         96%         X
       received within 30 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                               75%         84%         X
       cases within 180 days.
       Respond to 90 percent of congressional requests within
 2.4                                                               90%         97%          X
       21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                               90%         92%         X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive internal and external user
 2.6   assessment rating of 85 percent for                         85%         88%         X
       product-service quality.
       Issue 75 percent of final audit reports within 1 year of
 2.7                                                               75%         85%         X
       the entrance conference with SSA.
       Complete 80 percent of requests for legal advice and
 2.8                                                               80%         95%         X
       review within 30 days.
                                                   PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.       5%         2%          X
       Conduct an annual employee job-satisfaction survey
3.2*   and implement corrective action plans to identify areas     N/A         81%        N/A
       where improvement is needed.
       Ensure that 90 percent of OIG staff receives 40 or
 3.3   more hours of appropriate developmental and skill-          90%         93%         X
       enhancement training annually.


         * Measures the rate of employee satisfaction based on a survey administered by the OIG
         Organizational Health Committee.


         October 2006                SSA OIG FY 2006 Performance Report                  Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the three general areas. We
state each goal, its associated results and describe the method of calculation. We also
discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 - IMPACT
                Enhance the integrity, efficiency and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits and counsel actions to effect more efficient and
       effective SSA programs and operations.


               Maintain an annual acceptance rate of at least           FY 2006 Result
 Goal 1.1
               85 percent for all recommendations.                        93 Percent

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2006, our annual acceptance rate was 93 percent, exceeding our 85 percent goal. Of
the 373 recommendations we submitted during this period that have a management
decision, SSA agreed with 346.




October 2006                 SSA OIG FY 2006 Performance Report                   Page 3
               Through FY 2010, achieve a 5-year average
               implementation rate of 85 percent for accepted             FY 2006 Result
 Goal 1.2
               recommendations aimed at improving the                       92 Percent
               integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2006 we are reporting the 5-year period
covering FYs 2001 through 2005. Our average implementation rate for accepted audit
recommendations was 92 percent, exceeding our 85 percent goal. During this period, SSA
implemented 1,379 of 1,497 accepted recommendations.

               Achieve a positive action on at least 80                 FY 2006 Result
 Goal 1.3
               percent of all cases closed during the FY.                 87 Percent

This measure is calculated by dividing the total closed cases that resulted in a positive
action during the FY by the total cases closed during the FY. If the subject has been
sentenced, the case referred for a CMP and/or an administrative action has been taken
against the subject, it is considered a positive action on the closed case. Additionally,
certain referrals and administrative actions are considered positive.

For FY 2006, we closed 9,020 out of 10,405 investigations with a positive action. This
87 percent performance rate exceeds our 80 percent target.




October 2006                SSA OIG FY 2006 Performance Report                     Page 4
  Goal 2 - VALUE
  Provide quality products and services of value in a timely manner to Congress, SSA
  and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure internal and external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

               Generate a positive return of $4 for every tax           FY 2006 Result
 Goal 2.1
               dollar invested in OIG activities.                         $46 to $1

This measure is calculated by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2006, we generated a return of $46 for every dollar invested in us by the taxpayer.
This rate of return is largely due to an audit report entitled, Congressional Response Report:
Overpayments in the Social Security Administration’s Disability Programs
(A-01-04-24065). In this report, we identified over $1.1 billion in questioned costs and over
$2.1 billion in funds put to better use. Even without the extraordinary savings resulting
from this audit, we would still boast a return of $10 for every dollar invested, or more than
double our target of 4 to 1.

               Evaluate and respond to 90 percent of all                FY 2006 Result
 Goal 2.2
               allegations received within 30 days.                       96 Percent

This measure is calculated by dividing the total number of allegations closed or referred
within 30 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2006, we achieved a 96 percent rating. Of the 61,812 allegations closed or referred
during the FY, we closed or referred 59,638 within 30 days.




October 2006                 SSA OIG FY 2006 Performance Report                  Page 5
               Complete investigative fieldwork on 75 percent          FY 2006 Result
 Goal 2.3
               of all cases within 180 days.                             84 Percent

This measure is calculated by dividing the total number of investigations closed or referred
for judicial, CMP, SSA or other State or Federal agency action within 180 days during the
FY by the total investigations closed or referred during the FY.

For FY 2006, we surpassed our 75 percent goal with an 84 percent rating. A total of 10,405
investigations were closed or referred during the FY. Of these, we closed or referred 8,781
cases for action within 180 days.

               Respond to 90 percent of congressional                  FY 2006 Result
 Goal 2.4
               requests within 21 days.                                  97 Percent

This measure is calculated by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests received during the
FY. Processing days are the days elapsed from receipt of a congressional request to the date
of a response.

For FY 2006, we achieved a 97 percent rating. Our office responded to 70 of the 72
Congressional inquiries we received during the FY within 21 days.

               Take action on 90 percent of Civil Monetary
                                                                       FY 2006 Result
 Goal 2.5      Penalty (CMP) subjects within 30 days of
                                                                         92 Percent
               receipt.

This measure is calculated by dividing the total number of CMP subjects against whom
action was taken within 30 days of receipt during the FY by the total number of CMP
subjects where action was taken during the FY.

For FY 2006, we took action on 532 CMP subjects. Action was taken on 488 of those
subjects within 30 days of their receipt.

               Achieve a positive internal and external user
                                                                       FY 2006 Result
 Goal 2.6      assessment rating of 85 percent for
                                                                         88 Percent
               product-service quality.

This measure is calculated by using a 5-tier rating scale measuring the degree of
satisfaction with OIG products and services by recipients and users, including SSA and
other government entities, such as Congress, Offices of U.S. Attorney, and external law
enforcement agencies. The numeric response is translated into a percentage with 85
indicating satisfaction.

For FY 2006, we achieved an 88 percent rating, exceeding the 85 percent goal.



October 2006                SSA OIG FY 2006 Performance Report                   Page 6
               Issue 75 percent of final audit reports within          FY 2006 Result
 Goal 2.7
               1 year of the entrance conference with SSA.               85 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2006, our office achieved an 85 percent rating, exceeding our goal of 75 percent.
We issued a total of 108 audit reports during the fiscal year. We issued 92 of these reports
within 1 year of their respective entrance conference.

               Complete 80 percent of requests for legal               FY 2006 Result
 Goal 2.8
               advice and review within 30 days.                         95 Percent

This measure is calculated by dividing the total number of legal opinions, subpoenas and
audit reviews completed by Office of the Chief Counsel to the Inspector General within
30 days of receipt during the FY by the total number of requests for legal opinions,
subpoenas and audit reviews completed during the FY.

During FY 2006, we completed 397 of the 417 requests for legal opinions, subpoenas and
audit reviews within 30 days of their receipt.




October 2006                SSA OIG FY 2006 Performance Report                   Page 7
    Goal 3 - PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

             Achieve an annual attrition rate of 5 percent or        FY 2006 Result
 Goal 3.1
             less.                                                     2 Percent

This measure is calculated by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Full-Time Equivalents for the FY.

For FY 2006, there were 13 separations from the OIG’s 610 Full-Time Equivalents. This
results in a 2 percent attrition rate; well below our 5 percent target.

             Conduct an annual employee job-satisfaction
                                                                     FY 2006 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                       81 Percent
             identify areas where improvement is needed.

To measure employee job satisfaction, the OIG’s Organizational Health Committee
administered a 5-tier employee job satisfaction survey. The survey, which consisted of
13 questions, was disseminated to OIG employees nationwide. The results of this survey
will serve as a baseline to measure employee satisfaction in the future.

Question 12 of this survey asks, “Considering everything, how satisfied are you with your
job?” Based on a 63 percent response rate, 81 percent of our employees indicated that they
are either satisfied or very satisfied with their jobs.




October 2006                 SSA OIG FY 2006 Performance Report                 Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                       FY 2006 Result
Goal 3.3     or more hours of appropriate developmental
                                                                         93 Percent
             and skill-enhancement training annually.

This measure is calculated by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2006, 93 percent of OIG received 40 or more hours of appropriate developmental
and/or skill-enhancement training. Successfully attaining this goal demonstrates our belief
that training is the predominant factor in building a quality work experience and attracting
and retaining the best people. Throughout the course of this Strategic Plan, training will
remain very important to us and developing our employees will continue to be a major part
of our strategic focus.




October 2006               SSA OIG FY 2006 Performance Report                    Page 9
